      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201



February 23, 2012

TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services

FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Audits

SUBJECT:       Medicare Compliance Review of John Muir Medical Center, Walnut Creek, for
               Calendar Years 2008 Through 2010 (A-09-11-02060) and Medicare Compliance
               Review of University of California, San Diego, Medical Center for Calendar
               Years 2008 and 2009 (A-09-11-02055)

Attached, for your information, are advance copies of our final reports for two of our hospital
compliance reviews. We will issue these reports to John Muir Medical Center, Walnut Creek,
and University of California, San Diego, Medical Center within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact Lori
A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360 or
through email at Lori.Ahlstrand@oig.hhs.gov.

Attachment

cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs
       Centers for Medicare & Medicaid Services
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

February 28, 2012


Report Number: A-09-11-02060

Mr. Michael Moody
Chief Financial Officer
John Muir Health
1440 Treat Boulevard
Walnut Creek, CA 94597

Dear Mr. Moody:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of John Muir Medical Center,
Walnut Creek, for Calendar Years 2008 Through 2010. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please call Annie Weber, Senior
Auditor, or Shon Dormoy, Audit Manager, at (415) 437-8360. Please refer to report number
A-09-11-02060 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Moody


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    MEDICARE COMPLIANCE
          REVIEW OF
  JOHN MUIR MEDICAL CENTER,
        WALNUT CREEK,
     FOR CALENDAR YEARS
      2008 THROUGH 2010




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-09-11-02060
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

John Muir Medical Center, Walnut Creek (the Hospital), is an acute-care hospital located in
Walnut Creek, California. Medicare paid the Hospital approximately $408 million for
20,020 inpatient and 915,121 outpatient claims for services provided to beneficiaries during
calendar years (CY) 2008 through 2010 based on CMS’s National Claims History data.

Our audit covered $8,884,218 in Medicare payments to the Hospital for 197 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 through 2010 and consisted of 148 inpatient and 49 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 162 of the 197 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 35 claims, resulting in overpayments totaling $308,111 for
CYs 2008 through 2010. Specifically, 29 inpatient claims had billing errors, resulting in
overpayments totaling $254,942, and 6 outpatient claims had billing errors, resulting in
overpayments totaling $53,169. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •    refund to the Medicare contractor $308,111, consisting of $254,942 in overpayments for
        the incorrectly billed inpatient claims and $53,169 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

The Hospital concurred with our findings and recommendations and provided information on
actions taken to address the recommendations. The Hospital’s comments are included in their
entirety as the Appendix.




                                               ii
                                                   TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         John Muir Medical Center, Walnut Creek .....................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrect Charges Resulting in Incorrect Outlier Payments ..........................................5
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrect Discharge Status .............................................................................................6
          Manufacturer Credit for Replaced Medical Device Not Reported ................................6
          Incorrect Diagnosis-Related Group ...............................................................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Manufacturer Credit for Replaced Medical Device Not Reported ................................7
          Incorrectly Billed as Outpatient .....................................................................................7

      RECOMMENDATIONS ......................................................................................................8

      HOSPITAL COMMENTS ....................................................................................................8

APPENDIX

      HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.
1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
of claims. Examples of the types of claims at risk for noncompliance included the following:

    •   inpatient claims for short stays,

    •   inpatient transfer claims,

    •   inpatient claims with high severity level DRG codes,

    •   inpatient claims for blood clotting factor drugs,

    •   outpatient claims billed prior to and during inpatient stays,

    •   outpatient claims billed with modifier -59 (indicating that a procedure or service was
        distinct from other services performed on the same day),

    •   inpatient and outpatient claims paid in excess of charges, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.




                                                 2
John Muir Medical Center, Walnut Creek

John Muir Medical Center, Walnut Creek (the Hospital), is an acute-care hospital located in
Walnut Creek, California. Medicare paid the Hospital approximately $408 million for
20,020 inpatient and 915,121 outpatient claims for services provided to beneficiaries during
calendar years (CY) 2008 through 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $8,884,218 in Medicare payments to the Hospital for 197 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
in CYs 2008 through 2010 and consisted of 148 inpatient and 49 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient claims selected for review because our objective did not require an understanding of
all internal controls over the submission and processing of claims. Our review enabled us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

This report focuses on selected inpatient and outpatient claims and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital in March and April 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 through 2010;




                                                 3
   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2008 through 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 197 claims (148 inpatient and 49 outpatient claims) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been canceled or adjusted;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 162 of the 197 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 35 claims, resulting in overpayments totaling $308,111 for
CYs 2008 through 2010. Specifically, 29 inpatient claims had billing errors, resulting in
overpayments totaling $254,942, and 6 outpatient claims had billing errors, resulting in
overpayments totaling $53,169. These overpayments occurred primarily because the Hospital’s
existing controls did not adequately prevent incorrect billing of these Medicare claims.




                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 29 of 148 selected inpatient claims, which resulted
in overpayments totaling $254,942.

Incorrect Charges Resulting in Incorrect Outlier Payments

The Manual, chapter 3, section 10, states that a hospital may bill only for services provided. In
addition, chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly
and promptly, a bill must be completed accurately.” In addition, chapter 3, section 20.7.3.A, of
the Manual states that hospitals receive an add-on payment for the costs of furnishing blood
clotting factors to certain Medicare beneficiaries, such as hemophiliacs, and that the providers
must use revenue code 0636 so that the clotting factor charges are not included in the cost outlier
computations.

For 11 of 148 selected inpatient claims, the Hospital submitted claims to Medicare with incorrect
charges that resulted in incorrect outlier payments:

   •   For six claims, the Hospital billed Medicare for incorrect charges, specifically related to
       room and board. For example, for one claim, the Hospital billed for a patient’s stay as
       10 days in intensive care and 30 days in definitive care when it should have billed the
       patient’s stay as 7 days in intensive care and 33 days in definitive care. The Hospital
       stated that these errors occurred because the Hospital did not correctly adjust room
       charges when delays occurred in transferring patients to the rooms that the physicians
       ordered.

   •   For four claims, the Hospital billed Medicare with an incorrect revenue code.
       Specifically, when billing for blood clotting factor drugs, the Hospital used revenue code
       0250 instead of revenue code 0636, which caused the clotting factor charges to be
       included in the cost outlier computations, resulting in incorrect outlier payments. The
       Hospital stated that these errors occurred because the Hospital did not correctly identify
       the blood clotting factor drugs as hemophilia drugs.

   •   For one claim, the Hospital billed Medicare for an incorrect number of units of an
       administered drug. The Hospital stated that the incorrect billing occurred because of
       human error.

As a result of the 11 errors, the Hospital received overpayments totaling $187,938.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”




                                                 5
For 11 of 148 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient services. The Hospital subsequently
reviewed each of the claims and determined that the patients did not meet the severity of illness
or level of care required to be admitted as inpatients. The Hospital stated that these errors
occurred because of inadequate internal controls over case review during staffing shortages or
peak census periods. As a result of these errors, the Hospital received overpayments totaling
$32,440.

Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 5 of 148 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers to other facilities. For each claim, the
Hospital should have coded the discharge status as a transfer to another facility instead of as a
discharge to a home; thus, the Hospital should have received the per diem payment instead of the
full DRG payment. The Hospital stated that these errors occurred because of conflicting
information contained in the medical records and because of human error. As a result of these
errors, the Hospital received overpayments totaling $25,836.

Manufacturer Credit for Replaced Medical Device Not Reported

Federal regulations (42 CFR § 412.89(a)) require a reduction in the IPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of the device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8,
states that to correctly bill for a replacement device that was provided with a credit, hospitals
must use the combination of condition code 49 or 50 (which identifies the replacement device)
and value code FD (which identifies the amount of the credit or cost reduction received by the
hospital for the replaced device).

For 1 of 148 selected inpatient claims, the Hospital received a reportable medical device credit
for a replaced medical device from a manufacturer. However, the Hospital did not adjust its
inpatient claim with the proper condition and value codes to reduce payment as required. The
Hospital stated that this error occurred because of inadequate controls to identify and report
credits from device manufacturers. As a result, the Hospital received an overpayment of $4,900.




                                                   6
Incorrect Diagnosis-Related Group

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 1 of 148 selected inpatient claims, the Hospital billed Medicare with an incorrect DRG.
Specifically, the Hospital used the DRG for usage of a mechanical ventilator for more than
96 hours rather than using the DRG for usage of a mechanical ventilator for less than 96 hours.
The Hospital stated that this error occurred because of a miscalculation of days. As a result, the
Hospital received an overpayment of $3,828.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 6 of 49 selected outpatient claims, which resulted in
overpayments totaling $53,169.

Manufacturer Credit for Replaced Medical Device Not Reported

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier -FB and reduced
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

For 3 of 49 selected outpatient claims, the Hospital received full manufacturer credits for
replaced devices but did not report the -FB modifier or reduced charges on its claims. The
Hospital stated that these errors occurred because of inadequate controls to identify and report
credits from device manufacturers and because of human error. As a result of these errors, the
Hospital received overpayments totaling $53,091.

Incorrectly Billed as Outpatient

The Manual, chapter 3, section 10.4.A, states that Medicare Part A covers certain items and
nonphysician services furnished to inpatients and consequently the inpatient prospective payment
rate covers these services.




                                                   7
For 3 of 49 selected outpatient claims, the Hospital incorrectly billed Medicare Part B for
outpatient services provided during inpatient stays. These services should have been included on
the Hospital’s inpatient (Part A) claims to Medicare. The Hospital stated that the incorrect
billing occurred because of human error. As a result of these errors, the Hospital received
overpayments totaling $78.

RECOMMENDATIONS

We recommend that the Hospital:

   •    refund to the Medicare contractor $308,111, consisting of $254,942 in overpayments for
        the incorrectly billed inpatient claims and $53,169 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

The Hospital concurred with our findings and recommendations and provided information on
actions taken to address the recommendations. The Hospital’s comments are included in their
entirety as the Appendix.




                                               8
APPENDIX
                                                                                                            Page 1 0f3



                        APPENDIX: HOSPITAL COMMENTS 





Report Number: /\-09-1l -02060

Lori A, Ahlstrand
Regional Inspector Gcnera! for Audit Services
Office of Inspector General
Office of Audit Services, Region IX
90_7 110 Street Suite 3·650
San Francisco. CA 94103


Dr Ms Ahlstrand:

This !cUer is in response to the dnlHMedicorc (:omphmrce R{!vie1l' (~fJolm A/llir Medical Center,
WalnUl Creek,ji)}' ('alendal' leal's 200S Through 20}O, John Muir Health concurs with all
findings and reCO!1Ullcndation noted in this document John Muir f-Jc;:dth made appropriate
repayments ($3OfL ! 11) associated with this audit as of August 26, 2011. The following
describes the corrective actions and internat controls John rvluir Health has taken 1<)f each of the
following specific findings, In addition to the specific corrective actions internal controls
described below, John rv1uir Health has: (1) reported these findings and recommendations to
Senior Management, the Board of Directors and the Compliance COlllmittee: (2) indmled an of
these findings in its compliance risk assessment: and (3) as appropriat(;,~. wiD perform subst..~qllc!11
internal and external Judii;.; to ensure the measures have been, and continue to be. efj'ectivc,

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

1!lQOtT~LCbill:gS::~-,-R~~111Lill1LiJlJ.1l~..QUgft Ou,ili£LPaVI11s~11!Ji
In an effort to avoid incorrect charging pri'lctices that !lli'ly lead to Inappfopriate outlier payments,
John ivttill" I'Jealth has adopted the following corrective actions and illtermd controls:
                1> Provided fccdbnck and additional training to the departments responsible for the
                     errors. This process was completed May, 20 I L
                2. 	 jVlet with Patient Financial Service Managers to discuss Hemophilia Drug Carve­
                     Out qualifiers and billing considerations to ensure that DSC; edits properly stop
                      claims for review. 'fhls process was completed Marcil, 2011.
                ], 	 Validate the accuracy ofronm charges via the l:Zoom & Board charge
                     rcconcilintion report 'This is nn ongoing process,

JJw<;~,n·~_(;tly,J?iU~~L~1?Jl1p;:1ti(;nt
To ensure proper identification of patient status determination Jbr Medicare admissions, John
ivluir llealth has instituted a seven (7) day a week internal utilization review process and has
added it second level physida11 utilization revien' process through ,Hl outside vendor. filis
process was initiated in the third quarter of201 !,

Im:orrect Disi.'lwrge Status
To ensure appropriate discharge status on claims for i'vledicare beneficiaries. John Muir Health
has adopted tbe following corrective actions and internal controls:
             1, 	 Validated the accuracy of the discharge dispositions and mappings listed in our
                  health 111 formatlon system. ThIS process was completed on l2!l2!1 1,
                                                                                                             Page 2 of3




                   2. 	 Provided feedback and additional training to rhe coding specialists responsible
                        for the errors. This process \Vas completed on 5/25/ I J
                   3. 	 Shared the audit lindings with all coding specialists and communicated the need
                        for accuracy in assigning the dischnrge disposition. 'fhis process was completed
                        on 7/28/1 1.
                   4. 	 Met with Case Manageme!1t staff and communicated the need for l1oll-conHicting
                        data ill the medical record as it relates to the patient's discharge disposition;
                        added additional fidds in Midas to better reflect the patient's discharge status.
                        This process was completed on 5/10/11.
                   5, 	 Continuc to perform ongoing monitoring of the discharge disposition and share
                        results with staff. This is all ongoing process,

JYlm_lJ,\.nJ9.tJlrt:?r{'.L~_(liJJ9xJ\_~J?J_<_l~_t;_4 _ _M_~_(J.l.9_11_LP_~Y.i.~_~J:'.l9tJ:\;;'p9rt£d
To ensure John Muir Health appropriately bills for devices that arc replaced without cost. or for
devices in which it receivcs full or partial crcdit for the cost orllle replaced device (equa! to or
grcntcr than 50% of the cost or replacement), .Ioh11 Muir Hea[th has adopted the following
corrective actions and internal controls:
              1. 	 Provided feedback and additional training to the dcpmiments responsible j()1' the
                   error for the case wherc the warranty replacement was known at the time of
                   service. This process was completed !\--'Ia)', 20! 1<
             '; 	 Created a llHilti-disciplinary team from Charge Description Mas.ter (CDM
                   Grollp), Patient Accounting. Accounts Payable & Cardiovascular Services who
                   are tasked \vith developing [I Policy & Procedure to outline the steps and
                   processes for accurate charge cntry and billing of medica! devices ill which
                   \VarriHlty' credits or replacements have or may occur The initial elra!! 01'11115
                   policy was completed in November, 2011. The final draft of this policy is
                   cstlrnatcd to be completed allhe end of January, 2012.
            3. 	 Work with our large volume device vendors (i.e. St. Jude, Boston Scientific, etc.)
                   to generate annua 1 or bi~annmll reports of warranty credits issued to facilitate
                   Internal monitoring related to this isslie. This is "Hl ongoing process,

1119S!JIysLPi~U~JJ9.sJs_~Rt;Jnt(;_4_(-'-rQ_tJP
To ensure the appropriate DRG for usage of a mechanical ventilator, John Muir I-Iealth has
adopted the tj:!jJowing corrective actions and internal controls:
            1. 	 Discussed findings with the coding spec1allst responsible for the error and
                  provided additional education, including the need for accuracy in calculating the
                  length uftime patients are on.a ventilator. This process was completed on
                         6!29!11.
                  2. 	 Communicated \V·jth al! coding specialists the need for accuracy in calculating the
                       length of time paticnts arc 011 the ventllator. This p-roccsswas completed on
                         7/28/11.
                  3. 	 Continue (0 perform ongoing monitoring of the DRG assignment process ,vitI!
                       emphasis on DRG 207 versus DRG 208. This IS (In ongoing process.
                  4. 	 Share results of ongoing monitoring with staff. 'fhls is all ongoing process.




                                                                          2
                                                                                                                  Page 3 of3




BILLING ERRORS ASSOCIATED WITH OlJTI'ATIENT CLAIMS

!Yl~JlJ!ff\gJ~lr~JJ):~_(JjtfQLJ_~~ph~_9g_~LNt~slis:-,:\LQr;;_Yif_t;;"NgtR~j}:Qr~g~!_
To ensure John Muir Health appropriately bIOs for devices that arc replaced without cost, or fiJI'
devices in which it receives fun or partial credit for the cost of the replaced device (equal to or
greater than          50~%     of the cost of replacement), John Muir Health has adopted the following
corrective action s and internal controls:
                     a. 	 Provided Jecdback and additional training to the departments responsible t{)r the
                          error for the case where the warranty replacement was known at the time of
                          service. This prucess was completed May, 20!1.
                     b, 	 Created a multi-disciplinary team from Charge Description Master (CDM
                          Group), Patient Accounting, Accounts Payable & Cardiovascular Services who
                          are tasked \vlth developing a Policy & Procedure to outl ine the steps and
                          processes for accurate charge entr}' and billing of medical devices in which
                          \varranty credits or replacements have or may occur. The iniliai drafl of this
                          policy was comp!eted in November, 2011, The final draft of this potley is
                            estimated to be completed at the end of Januar.v, 2012.
                     c. 	 Work with our large volume device vendors (i.e, St. Jude, Boslon Scientif1c, etc.)
                          to generate annual or bi~[JJlnua! reports of warranty credits issued to L-l.ci litate
                          internal monitoring related to this issue. Tills is an ongoing process,

IIJ_\:..Qrr~_(:JJ):' JHH;;_d,_[i_::;___Q_~.tn2_<l.H~Jl~ 

The error Hssociated with this findIng was due to olle particul8r biller that was overriding an edit 

[11 !he lab system. John IVll1ir licalth provided additional feedback and training to this biller in 

IY'larch of 20 11. 


Please let me know ify.'01l have any questions or comments related to the responses provided 

above. \\ie look forward (0 the final drafL 





Chief Financial Officer
John I'V1uir Health




                                                              J
